Federal Bureau of Investigation - The Seattle Division: Department of Justice Press Release




                                                                          Department of Justice Press Release
                                     For Immediate Release                                               United States Attorney's Office
                                     June 29, 2009                                                       Western District of Washington
                                                                                                         Contact: (206) 553-7970

                                                  FAA Employee’s Relative Convicted in Scheme to Steal Excess Government Property
                                              Relative Profited from Scheme to Illegally take Government Boats, Plane, Cars and Electronics

                                     BRADLEY A. GARNER, 51, a Canadian citizen who resides in Palm Desert, California, was convicted of Wire
                                     Fraud and Theft of Honest Services, Mail Fraud, and Unlawful Monetary Transaction today in U.S. District Court in
                                     Tacoma, Washington. GARNER was convicted of public corruption charges involving a scheme to misappropriate
                                     expensive federal property such as boats, planes, vehicles and computers. The jury deliberated about ten hours,
                                     following a three week jury trial. U.S. District Judge Benjamin Settle ordered Garner detained pending sentencing
                                     scheduled for September 28, 2009. GARNER’s co-conspirator, his half-brother Steven B. Smith, a former employee
                                     of the Federal Aviation Administration is scheduled for trial on October 6, 2009.

                                     According to records filed in the case and testimony at trial, Steven Smith misused a government computer to place
                                     holds on items meant for transfer to other federal agencies. Smith would place a claim on the property as a
                                     representative of the FAA. However, Smith was not authorized to place any holds for the FAA. GARNER then
                                     traveled the country picking up claimed goods worth thousands of dollars. Some of the items claimed include two
                                     27' Boston Whaler boats, a Cessna airplane, a 50 foot yacht used in the Bahamas by the Drug Enforcement
                                     Administration, and a sailing yawl that had been used by the Naval ROTC program at the University of Washington.
                                     Although the scheme was international in scope, the counts of conviction relate to specific things GARNER did in
                                     Western Washington as he claimed the various items. For example, the Mail Fraud conviction relates to an
                                     insurance claim GARNER filed on the Cessna airplane falsely indicating he had purchased the plane for one dollar.
                                     Prosecutors pointed out that GARNER, who ran a limousine service, never obtained title showing the items were
                                     legally purchased and never registered the cars, boats or plane with licensing authorities. GARNER stored the
                                     items at his home or airport hangar. Some of the items, such as the sailboat claimed from the Navy ROTC, were
                                     smuggled to Canada.

                                     GARNER faces up to twenty years in prison for Mail Fraud and Wire Fraud.

                                     GARNER and Smith were first arrested in Southern California in November 2008. They were indicted by the grand
                                     jury in February 2009.

                                     The case was investigated by the General Services Administration Office of the Inspector General (GSA-OIG), the
                                     Internal Revenue Service Criminal Investigation (IRS-CI), the Department of Transportation Office of Inspector
                                     General (DOT-OIG), Naval Criminal Investigation Service (NCIS), Army Criminal Investigation Division (Army CID)
                                     Defense Criminal Investigation Service (DCIS) and the FBI. The case was prosecuted by Assistant United States
                                     Attorneys David Reese Jennings and Brian Werner.

                                     For additional information please contact Emily Langlie, Public Affairs Officer for the United States Attorney’s Office,
                                     at (206) 553-4110 or Emily.Langlie@USDOJ.Gov.

                                                                                         Press Releases | Seattle Home

                                        Accessibility | eRulemaking | Freedom of Information Act | Legal Notices | Legal Policies and Disclaimers | Links
                                                                                Privacy Policy | USA.gov | White House
                                                      FBI.gov is an official site of the U.S. Federal Government, U.S. Department of Justice.




http://seattle.fbi.gov/dojpressrel/2009/se062909.htm [7/9/2009 1:45:21 PM]
